App. 1
IN THE COURT OF APPEALS OF TENNESSEE
AT JACKSON
November 14, 2019 Session
PAMELA D. STARK v. JOE EDWARD STARK
Appeal from the Circuit Court for Shelby County
No. CT-002958-18 Robert Samual Weiss, Judge
No. W2019-00650-COA-R3-CV
(Filed Jan. 31, 2020)
This is an appeal from an order finding the appellant
in civil contempt and ordering her incarcerated until
she agreed to remove a social media post. The appel­
lant was incarcerated for four hours before she purged
herself of contempt by agreeing to remove the post. On
appeal, the appellant challenges the civil contempt
finding. Because the appellant has purged herself of
civil contempt and was released from incarceration, we
deem the issue moot and dismiss this appeal.
Tenn. R. App. P. 3 Appeal as of Right;
Appeal Dismissed
Carma Dennis McGee, J., delivered the opinion of the
court, in which J. Steven Stafford, P.J., W.S., and
Kenny W. Armstrong, J., joined.
Pamela D. Stark, Memphis, Tennessee, Pro Se.
Melissa C. Berry, Memphis, Tennessee, for the appel­
lee, Joe Edward Stark.

App. 2
OPINION
I. Facts & Procedural History
After a five-year marriage, Pamela Stark (“Wife”)
filed a complaint for divorce from her husband, Joe
Stark (“Husband”) on June 29, 2018. Wife is an attor­
ney and filed her complaint pro se. Husband is a ser­
geant with the Memphis Police Department.
Tennessee Code Annotated section 36-4-106(d)
states that when a petition for divorce is filed and
served, the following temporary injunction is in effect
against both parties:
(3) An injunction restraining both parties
from harassing, threatening, assaulting or
abusing the other and from making dispar­
aging remarks about the other ... to either
party’s employer.
Tenn. Code Ann. § 36-4-106(d)(3) (emphasis added).
The parties are permitted to apply to the court “for fur­
ther temporary orders, an expanded temporary injunc­
tion, or modification or revocation of this temporary
injunction.” Tenn. Code Ann. § 36-4-106(d)(6).
Husband filed an answer and counter-complaint
for divorce. Wife amended her complaint to add “interspousal tort” claims against Husband, including bat­
tery and intentional infliction of emotional distress.
Wife alleged that she was injured during a physical al­
tercation with Husband days before the complaint for
divorce was filed.

App. 3
On January 15, 2019, Husband filed a petition for
a restraining order. Husband alleged that he had re­
cently become aware of a Facebook post made by Wife
on December 14, 2018, in which she publicly posted al­
legations regarding Husband and the alleged incident
of domestic violence between them. Husband claimed
that Wife’s post also disparaged the Memphis Police
Department and its investigation of the incident. Hus­
band asserted that Wife’s dissemination of these alle­
gations in a public forum would cause him immediate
and irreparable injury, including but not limited to loss
of employment, demotion, or damage to his reputation
within the department. As such, Husband asked the
trial court to enter a restraining order directing Wife
to remove the Facebook post and to cease and desist
from making any future comments, orally or on social
media, that might jeopardize his employment or im­
pugn his reputation with the police department. Hus­
band sought an award of attorney’s fees incurred in
bringing the petition for a restraining order.
Wife filed a response to the petition in which she
alleged that her post was critical of the Memphis Police
Department, not Husband. She also argued that the
restraining order sought by Husband would infringe
on her “constitutional rights.” The trial court held a
hearing on Husband’s petition for a restraining order
on February 7, 2019. At the outset, counsel for Hus­
band explained that Husband was basically asking the
trial court to extend the existing statutory injunctions
to specifically address public posts on social media or
communication with Husband’s employer that would

App. 4
have a detrimental effect on his reputation or employ­
ment. Husband submitted as exhibits the Facebook
post made by Wife and also an email Wife had sent to
the mayor of Memphis about the incident. In the Facebook post, Wife claimed to be “a recent victim of domes­
tic violence at the hands of a Memphis Police Officer,”
and she criticized the handling of the investigation.
Husband testified that his co-workers at the police
department saw the Facebook post before he did. He
explained that he and Wife have many mutual friends
on the social media site because Wife worked as a pros­
ecutor. Husband testified that a special prosecutor
from another city was appointed to conduct an investi­
gation regarding the alleged incident of domestic vio­
lence involving him and Wife.
Wife’s four-page email to the mayor likewise
claimed that she was a victim of domestic violence at
the hands of Husband and a victim of misconduct by
the Memphis Police Department. She identified her
husband by name and rank and described her version
of the physical altercation between them and the
events that followed. Wife asked the mayor to “look
into this before it goes further.” Husband testified that
the city mayor is considered his ultimate boss and
employer. He opined that Wife’s social media post
and email to the mayor constituted harassment and
brought his reputation into question.
Wife did not testify but repeated her argument
that she had an absolute right to criticize the police
department. At the conclusion of the hearing, the
trial judge informed Wife that the problem with her

App. 5
argument was the existence of the automatic injunc­
tion prohibiting her from “making disparaging re­
marks about the other [spouse] ... to either party’s
employer.” See Tenn. Code Ann. § 36-4-106(d)(3) (em­
phasis added). The trial judge acknowledged Wife’s
“freedom of speech” argument but emphasized that her
email did not convey some general concern about police
corruption but instead was in direct reference to Hus­
band. He explained that the references to Husband
were “off limits.” The trial judge then orally ruled that
the Facebook post had to be removed that same day
and that Wife would not be permitted to make further
allegations on social media or have communication
with Husband’s employer.
The following exchange occurred between the trial
judge and Wife:
The Court: That post shall be removed to­
day, and a mandatory injunction
will go into effect that there will
be no communication with em­
ployers. There is a special prose­
cutor involved in this case. That
special prosecutor will deal with
this Court. Whatever allegations
have been made, we’ll deal with
that in due course. But at this
point involving making any fur­
ther allegations in social media
is completely inappropriate and
is being enjoined.
Ms. Stark:

Well, Your Honor, I will just with
all candor to the Court say you

App. 6
might as well take me into cus­
tody right now. I have contacted
the FBI as well as having con­
tacted the mayor of Memphis to
try and get this addressed. I am
saying that I am a victim of cor­
ruption from the Memphis Police
Department, and I am going to
pursue every course of action I
have and The Court: Ms. Stark, are you going to re­
move that post, yes or no?
Ms. Stark:

I am not.

The Court: Officer Houston, take her into
custody. We’ll stand in recess.
(Short break.)
The Court: Ms. Stark, please stand. Are you
going to comply with this Court’s
orders?
Ms. Stark:

No, I’m not.

The Court: All right. I’m making a finding
that you are in direct contempt
of court by willfully refusing to
comply with this Court’s orders.
You will be held in the - you will
be held in custody until such
time that you decide that you
want to change your position and
you apologize to this Court. We’ll
stand in recess until that time.

App. 7
Wife was held in custody for four hours before she
agreed to remove the Facebook post and was released.
Thereafter, the trial court entered its written or­
der granting Husband’s petition for a restraining or­
der. The trial court entered a separate written order
finding Wife in direct civil contempt. The order states
that at the end of the hearing on the petition for a re­
straining order, “in open Court, [Wife] advised that the
Court may as well [ ] find her in Contempt as she was
not going to take the Facebook post of December 14,
2018 down which had just been ordered.” The court
noted that it then asked Wife directly whether she was
going to abide by the court’s order, to which she re­
sponded, “No.” As such, the order states, the trial court
found Wife in direct contempt of court, and she was im­
mediately taken into custody. According to the order,
Wife was ordered to be held in custody until she agreed
to remove the Facebook post, and after being held in
custody for four hours, she agreed to remove the post
as ordered. Therefore, the written order states that
Wife had already purged her contempt. Wife timely
filed a notice of appeal.
II. Issues Presented
Wife presents the following issues, which we have
slightly restated, in her brief on appeal:
1.

Whether the trial court erred by issuing a re­
straining order involving matters which were not
subject to adjudication or final judgment in the

App. 8
pending divorce and interspousal tort case before
the court;
2.

Whether the trial court erred in finding sufficient
proof under Tennessee Rule of Civil Procedure
65.04 to establish either a right or an immediate
and irreparable injury, loss, or damage to warrant
the restraining order;

3.

Whether the trial court erred in issuing a restrain­
ing order without employing the proper constitu­
tional analysis associated with Wife’s infringed
rights;

4.

Whether the trial court erred in conducting sum­
mary contempt proceedings to impose sanctions
for direct civil contempt; and

5.

Whether the trial court erred in imposing con­
tempt sanctions before the court’s order was actu­
ally violated.

In his posture as appellee, Husband asserts that Wife’s
issues on appeal must be limited to those challenging
the contempt order, not the restraining order entered
in the context of the underlying divorce action, which
remains pending in the trial court.
III. Discussion
At the outset, we address the issue raised on ap­
peal by Husband. Husband argues that Wife has only
perfected an appeal from the order of contempt, and
therefore, the issues she can raise on appeal must be
limited to those presenting proper challenges to the
contempt order. We agree with Husband in this regard.

App. 9
“Contempt proceedings are sui generis and are in­
cidental to the case out of which they arise.” Baker v.
State, 417 S.W.3d 428, 435 (Tenn. 2013) (citing Doe v.
Bd. of Prof’l Responsibility, 104 S.W.3d 465,474 (Tenn.
2003)). The term “sui generis” means “[o]f its own kind
or class; unique or peculiar.” Black’s Law Dictionary
(11th ed. 2019). “The contempt proceeding may be ‘re­
lated to the underlying case but independent from it.
Ballard v. Cayabas, No. W2016-01913-COA-R3-CV,
2017 WL 2471090, at *2 (Tenn. Ct. App. June 8, 2017)
(quoting Green v. Champs-Elysees, Inc., No. M201300232-COA-R3-CV, 2014 WL 644726, at *7 (Tenn. Ct.
App. Feb. 18, 2014)).
A contempt proceeding “often stems from an un­
derlying proceeding that is not complete.” Doe, 104
S.W.3d at 474. However, “[a] judgment of contempt fix­
ing punishment is a final judgment from which an ap­
peal will lie.” Hall v. Hall, 772 S.W.2d 432, 436 (Tenn.
Ct. App. 1989) (citing State v. Green, 689 S.W.2d 189
(Tenn. Crim. App. 1984)). A contempt judgment “be­
comes final upon entry of the judgment imposing a
punishment therefore.” State ex rel. Garrison v. Scobey,
No. W2007-02367-COA-R3-JV, 2008 WL 4648359, at *4
(Tenn. Ct. App. Oct. 22,2008) (citing Green, 689 S.W.2d
at 190). The contempt ruling must be appealed within
thirty days. Blakney v. White, No. W2018-00617-COAR3-CV, 2019 WL 4942436, at *4 (Tenn. Ct. App. Oct. 8,
2019). “‘It matters not that the proceedings out of
which the contempt arose are not complete.’ ” Moody v.
Hutchison, 159 S.W.3d 15, 31 (Tenn. Ct. App. 2004)
(quoting Green, 689 S.W.2d at 190). “An order that

App. 10
imposes punishment for contempt ‘is a final appealable
order in its own right, even though the proceedings in
which the contempt arose are ongoing'” Ballard, 2017
WL 2471090, at *2 (quoting Coffey v. Coffey, No. E201200143-COA-R3-CV, 2013 WL 1279410, at *5 (Tenn. Ct.
App. Mar. 28, 2013)).
Here, Wife filed a notice of appeal within thirty
days of the trial court’s contempt order. Accordingly,
she has properly perfected an appeal from the con­
tempt order. However, the divorce case in which the
restraining order was entered remains pending. In
considering Wife’s issues, we must bear in mind that
this is an appeal from the contempt order, not an ap­
peal from the restraining order. See Garrison, 2008 WL
4648359, at *4 (reviewing the contempt issues pre­
sented on appeal separately “as distinct from the re­
mainder of the appeal” and dismissing the remainder
of the appeal for lack of a final judgment).
Because this is an appeal from the contempt order,
Wife is limited in her ability to raise issues regarding
the restraining order. Wife argues that she can also
challenge the restraining order, noting that one of the
essential elements of a civil contempt finding is that
the court order alleged to have been violated must
have been a “lawful” order. Konvalinka u. ChattanoogaHamilton Cty. Hosp. Auth., 249 S.W.3d 346, 354 (Tenn.
2008). However, in this context:
A lawful order is one issued by a court with
jurisdiction over both the subject matter of
the case and the parties. An order is not

App. 11
rendered void or unlawful simply because it is
erroneous or subject to reversal on appeal. Er­
roneous orders must be followed until they
are reversed.
Id. at 355 (internal citations omitted). For these rea­
sons, we emphasize that the limited issue before this
Court is whether the trial court erred by holding Wife
in civil contempt.
The Tennessee Supreme Court has explained civil
contempt as follows:
Civil contempt is remedial in character
and is applied when a person refuses or fails
to comply with a court order. [State u] Beeler,
387 S.W.3d [511, 520 (Tenn. 2012)]. A civil
contempt action is brought to force compli­
ance with the order and thereby secure pri­
vate rights established by the order. Overnite
Transp. Co. v. Teamsters Local Union No. 480,
172 S.W.3d 507, 510 (Tenn. 2005) (citing Rob­
inson v. Air Draulics Eng’g Co., 214 Tenn. 30,
377 S.W.2d 908, 912 (1964)). When a trial
court orders imprisonment after finding civil
contempt, the confinement is remedial and
coercive in nature, designed to compel the
contemnor to comply with the court’s order.
Consequently, compliance with the order will
result in the contemnor’s immediate release
from confinement. Id. at 511. It has long been
said that in a civil contempt case, the contem­
nor “carries the keys to his prison in his own
pocket.” State ex rel. Anderson v. Daugherty,
137 Tenn. 125,191 S.W. 974, 974 (1917).

App. 12
Baker, 417 S.W.3d at 435-36. i « Beyond the ‘civil’ or
‘criminal’ classification, contempt is also categorized as
‘direct’ or ‘indirect.’” Id. at 436 n.7. “Contempt can be
further classified as direct or indirect depending on
whether the misbehavior occurred in the court’s pres­
ence.” In re Brown, 470 S.W.3d 433,443 (Tenn. Ct. App.
2015). “Direct contempt is based on acts committed in
the presence of the court!.]” Id. at 443-44.
In the case before us, the trial court held Wife in
direct civil contempt and ordered her incarcerated un­
til she agreed to remove the Facebook post. Wife was
in custody for approximately four hours before she
agreed to remove the post and was released. Thus, Wife
has purged herself of contempt.
This Court has repeatedly held that issues raised
on appeal regarding civil contempt findings are moot if
the contemnor has already purged himself or herself of
contempt by the time the issue reaches this Court. “A
case, or an issue in a case, becomes moot when the par­
ties no longer have a continuing, real, live, and sub­
stantial interest in the outcome.” Hooker v. Haslam,
437 S.W.3d 409, 417 (Tenn. 2014). For instance, in
Simpkins v. Simpkins, 374 S.W.3d 413, 417 (Tenn. Ct.
1 Unlike civil contempt, “ [sanctions for criminal contempt
are generally both punitive and unconditional in nature, designed
to punish past behavior, not to coerce directly compliance with a
court order or influence future behavior.” Baker, 417 S.W.3d at
436. Criminal contempt is often regarded as a crime. Id. “[W]hen
a court imposes a definite term of confinement for conduct consti­
tuting criminal contempt, the contemnor cannot shorten the term
by agreeing not to continue in the behavior that resulted in his
confinement.” Id.

App. 13
App. 2012), a husband was found in civil contempt for
failure to pay health insurance premiums and failure
to provide proof of life insurance. On appeal to this
Court, the husband argued that the trial court erred
by finding him in civil contempt without finding that
he had the ability to comply with the orders he alleg­
edly violated. Id. Because the husband had already
“cured his contemptuous conduct” by paying the pre­
miums and providing proof of insurance, we held that
“the issue of civil contempt is moot.” Id. at 418.
In Pfister v. Searle, No. M2000-01921-COA-R3-JV,
2001 WL 329535, at *2 (Tenn. Ct. App. Mar. 28, 2001),
the trial court found a mother in civil contempt and
ordered her jailed until she delivered the parties’ child
for visitation. The mother was released when the child
was produced the next day. Id. at *4. On appeal, the
mother argued that the evidence did not support a
finding that she willfully violated the order because it
was confusing. Id. We held that “because the [mother]
complied with the court’s order to produce her child,
thereby purging her civil contempt, that judgment is
now moot, and we decline to address it .” Id. at *1. “The
validity of the trial court’s order finding her in civil
contempt [was] moot.” Id. at *4. See also In reA.G.,
No. M2007-0799-COA-R3-JV, 2009 WL 3103843, at *5
(Tenn. Ct. App. Sept. 28, 2009) (concluding that a
mother’s challenge to her sentence for criminal con­
tempt was moot when she had already served the sen­
tence and it was “unclear what meaningful relief lies
within the power of this court to give her at this
point”); Boggs v. Boggs, No. M2006-00810-COA-R3-CV,

App. 14
2007 WL 2353156, at *5 (Tenn. Ct. App. Aug. 17, 2007)
(deeming the appellant’s arguments regarding two
civil contempt findings moot where the appellant paid
the amount ordered and was released from custody).
“Generally, whether a claim is moot involves a
question of law that this Court will review de novo.”
Huggins v. McKee, 500 S.W.3d 360, 375 (Tenn. Ct. App.
2016) (citing All. for Native Am. Indian Rights in Tenn.,
Inc. v. Nicely, 182 S.W.3d 333, 338-39 (Tenn. Ct. App.
2005)). “The general rule remains that appellate courts
‘should dismiss appeals that have become moot regard­
less of how appealing it may be to do otherwise.’”
Hooker, 437 S.W.3d at 417 (quoting Norma Faye Pyles
Lynch Family Purpose LLC v. Putnam Co., 301 S.W.3d
196, 210 (Tenn. 2009)). However, even if a case may
have become moot, “before dismissing it a court should
consider whether to exercise its discretion to apply one
of the recognized exceptions to the mootness doctrine.”
Id. The Tennessee Supreme Court has identified “a
limited number of exceptional circumstances that
make it appropriate to address the merits of an issue
notwithstanding its ostensible mootness [.]” City of
Memphis v. Hargett, 414 S.W.3d 88, 96 (Tenn. 2013).
Those “exceptional circumstances” are:
(1) when the issue is of great public im­
portance or affects the administration of jus­
tice; (2) when the challenged conduct is
capable of repetition and evades judicial re­
view; (3) when the primary dispute is moot
but collateral consequences persist; and (4)

App. 15
when a litigant has voluntarily ceased the
challenged conduct.
Id. (citing Lufkin v. Bd. of Prof’l Responsibility, 336
S.W.3d 223, 226 (Tenn. 2011)).
The only exception arguably relevant in this case
is “when the primary subject of the dispute has become
moot but collateral consequences to one of the parties
remain.” Hooker, 437 S.W.3d at 417-18. This exception
is “applicable in the court’s discretion.” Id. The court
“may refrain from dismissing an appeal as moot when
collateral consequences remain following the dismissal
of the appeal.” Hudson v. Hudson, 328 S.W.3d 863,86566 (Tenn. 2010). This exception to the mootness doc­
trine applies if “prejudicial collateral consequences”
are shown to exist. Id. at 866. “Such collateral conse­
quences can include the continued effect of an order
that has expired or is invalid.” Id.
In the case at bar, members of this Court asked
Wife at oral argument why this appeal should not be
dismissed as moot when Wife had purged herself of
contempt and been released from incarceration. Wife
argued that the issue of contempt was not moot be­
cause (1) the contempt finding was a “blight” on her
record, (2) the contempt finding might be used against
her in the divorce trial, and (3) an issue of attorney’s
fees had been reserved in the trial court.
We begin with her argument regarding attorney’s
fees. In Dockery v. Dockery, No. E2009-01059-COA-R3CV, 2009 WL 3486662, at *2 (Tenn. Ct. App. Oct. 29,
2009), we considered whether a husband’s appeal

App. 16
challenging his contempt conviction was moot when he
had already completed his jail sentence. In addition to
the jail sentence, the husband was also ordered to pay
the wife’s attorney’s fees. Id. *2 at n.2. As such, we held
that his “entire appeal” was not moot, but any chal­
lenge to the length of his sentence was moot because it
no longer presented a justiciable controversy. Id. at *2
n.2, *10. Unlike Dockery, however, the trial court in
this case did not order Wife to pay Husband’s attor­
ney’s fees in connection with the finding of contempt.
As we noted in a related appeal of a recusal motion
Wife filed in this case, “Following the trial court’s oral
ruling on the motion for restraining order, Wife essen­
tially invited the trial court to find her in contempt af­
ter stating that she would not follow the trial court’s
order.” Stark v. Stark, No. W2019-00901-COA-T10BCV, 2019 WL 2515925, at *10 (Tenn. Ct. App. June 18,
2019). Thus, Husband never filed a petition for con­
tempt or sought attorney’s fees in connection with con­
tempt. The trial court’s order granting Husband’s
petition for a restraining order reserved a ruling on his
request for attorney’s fees in connection with his re­
quest for a restraining order. As a result, it is not nec­
essary to address the contempt finding on appeal due
to any outstanding issue regarding attorney’s fees,
which was present in Dockery.
Wife’s arguments regarding the “blight” on her
record and the possible use of the contempt order in
the divorce trial are likewise unconvincing.2 Another
2 This was a short-term marriage with no children, and nei­
ther party requested alimony.

App. 17
panel of this Court rejected a similar argument in
Bradford v. Bradford, No. 86-262-11,1986 WL 2874, at
*2 (Tenn. Ct. App. Mar. 7,1986). The appellant was no
longer incarcerated under the court’s contempt order
but insisted that the issues on appeal were not moot
because he “may continue to suffer consequences as a
result” of the contempt finding. Id. The appellant ar­
gued that the contempt finding might be used against
him in a custody matter or a subsequent contempt pro­
ceeding. Id. We found that argument “highly specula­
tive.” Id. This Court was “not persuaded that the
finding of contempt may still have ‘some practical ef­
fect’ in the future which would keep defendant’s case
from being moot.” Id.
Additionally, in State v. Jenkins, No. C/A 157,1989
WL 124950, at *1 (Tenn. Ct. App. Sept. 13, 1989), an
individual was held in contempt for failure to submit
to paternity blood testing but purged himself of con­
tempt by submitting to the blood test. On appeal, we
held that “[his] challenges to the contempt order are
moot since no meaningful relief can be rendered.” Id.
Quoting a case from Maryland, the dissenting judge in
Jenkins suggested that the issue was not moot because
the contempt order would remain in court records “for
all to see.” Id. at *2. Although recognizing that the con­
tempt order “may not ever be utilized” and that its “ef­
fect beyond mere existence is not known, and may be
none,” the dissent took the position that the mere ex­
istence of a contempt order was enough to give sub­
stance to the appeal. Id. However, the majority opinion
was to the contrary. Thus, Tennessee courts have not

App. 18
recognized the type of vague and speculative interests
asserted by Wife as sufficient “prejudicial collateral
consequences.”3

3 We recognize that in some jurisdictions, special exceptions
have been created in cases involving attorneys held in criminal
contempt. See, e.g., Johnson v. State, 306 Ga. App. 844, 846 (2010)
(explaining the general rule that an appeal of a criminal contempt
order is moot upon the contemnor’s release from jail, but in Geor­
gia, “an exception to this rule has been made in cases involving
an attorney”); see also Nakell v. Attorney Gen. ofN. Carolina, 15
F.3d 319, 322-23 (4th Cir. 1994) (distinguishing a case involving
“a layperson not subject to professional discipline” from one in­
volving an attorney who could face possible discipline as a result
of a criminal contempt conviction); Matter of Betts, 927 F.2d 983,
988 (7th Cir. 1991) (“In the case of an attorney convicted of crim­
inal contempt of court, the conviction may have collateral conse­
quences, such as action by the state attorney registration and
disciplinary authority.”)
However, a civil contempt order “does not entail the kind of
collateral consequences that a criminal conviction entails.” S.E.C.
v. Res. Dev. Int’l, 291 F. App’x 660, 665 (5th Cir. 2008); see also
U.S. v. Johnson, 801 F.2d 597, 600 (2d Cir. 1986) (stating that
collateral legal consequences “are difficult to establish as to a civil
contempt”). The Florida Court of Appeals declined to dismiss an
attorney’s appeal of a criminal contempt conviction as moot in
Keezel v. State, 358 So. 2d 247, 248-49 (Fla. Dist. Ct. App. 1978),
recognizing the “adverse legal consequences” flowing from the
criminal conviction. However, the Court declined to apply the
same rule to an attorney who was only found in civil contempt in
O’Connor v. O’Connor, 415 So. 2d 902, 903 (Fla. Dist. Ct. App.
1982), deeming his appeal moot. The Court distinguished Keezel
and found its reasoning “not persuasive in this civil contempt
matter, wherein the appellant is an attorney.” Id. at n.l. Here,
Wife was only held in civil contempt, rather than criminal con­
tempt, and she did not present any argument on appeal regarding
the possibility of disciplinary action, so we decline to find any col­
lateral consequences based on her status as an attorney.

App. 19
Absent a showing by Wife of specific prejudicial
collateral consequences resulting from the trial court’s
finding of contempt, we decline to apply the collateral
consequences exception to the mootness doctrine. See
Hudson, 328 S.W.3d at 866 (dismissing an appeal as
moot because the father “ha[d] not shown that we
should refrain from dismissing his appeal as moot” by
describing “prejudicial collateral consequences neces­
sary to invoke this exception to the mootness doc­
trine”).
IV. Conclusion
For the aforementioned reasons, this appeal is dis­
missed. Costs of this appeal are taxed to the appellant,
Pamela Stark, for which execution may issue if neces­
sary.

CARMA DENNIS MCGEE, JUDGE

App. 20
IN THE COURT OF APPEALS OF
TENNESSEE AT JACKSON
PAMELA D. STARK v. JOE EDWARD STARK
Circuit Court for Shelby County
No. W2019-00650-COA-R3-CV

ORDER
(Filed Sep. 6, 2019)
On August 21, 2019, Appellee Joe Edward Stark
filed a “Second Motion to Dismiss” in which he requests
this Court dismiss all claims related to a Temporary
Restraining Order entered by the trial court on Febru­
ary 13, 2019. The Appellee claims that the only final
judgment properly before this Court on appeal is the
March 29, 2019 order on contempt, and therefore the
Appellant erred in raising as her first three issues in
her brief claims related to the temporary restraining
order. The Appellee requests that this Court dismiss
the first three issues presented by the Appellant and
limit the appeal to issues related to the order on con­
tempt.1 The Appellee’s motion fails to specify efforts to
contact adverse counsel or whether there is opposition
to the motion but otherwise complies with Tennessee
Rule of Appellate Procedure 22.

1 As presented, the Appellee’s request more closely resem­
bles a Motion to Strike.

App. 21
On August 28, 2019, the Appellant filed a timely
Response in opposition to the Motion to Dismiss. The
Appellant asserts multiple reasons for not granting
the partial dismissal of the appeal, including argu­
ments that the Notice of Appeal notices both the tem­
porary restraining order and the contempt order, the
assertion of constitutional claims, and the practical ob­
servation that review of the order on contempt neces­
sarily requires review of the underlying restraining
order.
After reviewing the motion and response, and af­
ter consideration of Rules of Appellate Procedure and
applicable Tennessee law, the Court declines to strike
the identified portions of the Appellant’s brief. Such ar­
guments are best reserved for full consideration by the
Court as part of the entire case on appeal. Moreover,
because a legal determination of the role the tempo­
rary restraining order plays in the review of the final
judgment appealed is a proper issue for the Court to
address on appeal, a partial dismissal at this time
would be premature and inadvisable.
Upon due consideration, the motion is respectfully
denied. It is SO ORDERED.
PER CURIAM

App. 22
IN THE COURT OF APPEALS OF TENNESSEE
AT JACKSON
PAMELA D. STARK v. JOE EDWARD STARK
Circuit Court for Shelby County
No. CT-002958-18
No. W2019-00650-COA-R3-CV

ORDER
(Filed May 15, 2019)
On May 2, 2019, Appellee Joe Edward Stark filed
a motion requesting that the Court dismiss the appeal
for lack of subject matter jurisdiction. As grounds for
dismissal, the Appellee claims that the March 29,2019
order appealed is not a final order. To support this as­
sertion, the Appellee argues that the order appealed is
an interlocutory order addressing a petition for direct
civil contempt, but does not adjudicate all the claims
or rights of the parties in the pending divorce proceed­
ing. As such, argues the Appellee, the order appealed
fails to meet the requirements of Tennessee Rules of
Appellate Procedure 3 and therefore this Court lacks
subject matter jurisdiction to entertain the appeal. The
Appellee also requests that this Court deem the appeal
frivolous and award him attorney fees and costs. The
Appellee’s motion fully complies with the require­
ments of Tennessee Rule of Appellate Procedure 22.

App. 23
The Appellant filed a response in opposition to the
motion to dismiss on May 5, 2019. The Appellant
claims that this Court does have jurisdiction over the
appeal. The Appellant supports this claim by arguing
the order appealed addressed a restraining order and
corresponding contempt order, both of which are inci­
dental to, and independent from, the case out of which
it arose. As such, argues the Appellant, the order ap­
pealed is a final judgment and must be timely ap­
pealed.
This Court has previously held that:
[A] contempt proceeding is sui generis and is
considered incidental to the case out of which
it arises, and often stems from an underlying
proceeding that is not complete. The contempt
proceeding may be related to the underlying
case but independent from it. Thus, [a] judg­
ment of contempt fixing punishment is a final
judgment from which an appeal will lie. The
judgment of contempt becomes final upon en­
try of the judgment imposing a punishment
therefore. It matters not that the proceedings
out of which the contempt arose are not com­
plete. An order that imposes punishment for
contempt is a final appealable order in its own
right, even though the proceedings in which
the contempt arose are ongoing.
Ballard v. Cayabas, 2017 WL 2471090, at *2 (Tenn. Ct.
App. June 8, 2017) (internal citations removed).
The record in this case has not been filed. Accord­
ingly, this Court is unable to review the order appealed

App. 24
to determine if it imposes punishment for contempt.
Therefore the Court cannot, at this time, determine if
the order appealed is a final order or interlocutory or­
der. As such, dismissal at this time would be premature
and unwise.
Upon due consideration, the motion is respectfully
denied. Further, this Court declines to hold that the
appeal is frivolous. It is SO ORDERED.
PER CURIAM

App. 25
IN THE CIRCUIT COURT OF TENNESSEE FOR
THE THIRTEENTH JUDICIAL DISTRICT
AT MEMPHIS, SHELBY COUNTY
PAMELA DIANE STARK,
Plaintiff/Respondent,
vs.
JOE EDWARD STARK,

No. CT-002958-18
Division VIII

Defendant/Petitioner.

ORDER ON DIRECT CIVIL CONTEMPT

(Filed Mar. 29, 2019)
THIS CAUSE came on to be heard on the 7th day
of February, 2019, before the Honorable Robert S.
Weiss, Judge of Division VIII of the Shelby County Cir­
cuit Court on the on the Court’s sua sponte finding Re­
spondent, Pamela Diane Stark, in Contempt, based on
the statements of Respondent and the record as a
whole, from all of which the Court finds as follows:
1. That following the hearing on the Petition for
Restraining Order Pursuant to Tennessee Rules of
Civil Procedure Rule 65.03 on February 7,2019 in open
Court, Ms. Stark advised that the Court may as well
as find her in Contempt as she was not going to take
the Facebook post of December 14, 2018 down which
had just been ordered.

App. 26
2. The Court then asked whether she was going
to abide by the Court’s Order to which she said “No.”
3. Ms. Stark was immediately ordered to be
taken into custody for direct contempt of Court.
4. Ms. Stark was ordered to be held in custody
until such time that she agreed to remove the Facebook
post in question.
5. Only after consultation with counsel and be­
ing in custody for four (4) hours did Ms. Stark agreed
to remove the Facebook post as previously ordered.

IT IS THEREFORE ORDERED, ADJUDGED
AND DECREED:
1. That the Respondent, Pamela Stark, is found
to be in Direct Contempt of Court however has purged
her Contempt.
/s/ Robert S. Weiss
JUDGE
3/29/19
DATE

App. 27
CERTIFICATE OF SERVICE
I certify that I have this 29 day of February March
2019 hand-delivered a copy of this order to counsel for
each of the parties affected or to the parties themselves
if not represented by counsel.
/s/A. Wells
DEPUTY CLERK

App. 28
IN THE CIRCUIT COURT OF TENNESSEE
FOR THE THIRTEENTH JUDICIAL DISTRICT
AT MEMPHIS
PAMELA DIANE STARK,
Plaintiff/Respondent,
vs.

No. CT-002958-18
Division VIII

JOE EDWARD STARK,
Defendant/Petitioner.
ORDER ON PETITION FOR RESTRAINING
ORDER PURSUANT TO TENNESSEE
RULES OF CIVIL PROCEDURE RULE 65.03
(Filed Feb. 13, 2019)
THIS CAUSE came on to be heard on the 7th day
of February, 2019 before the Honorable Robert S.
Weiss, Judge of Division VIII of the Circuit Court of
Shelby County, Tennessee on the Petition for Restrain­
ing Order Pursuant to Tennessee Rules of Civil Proce­
dure Rule 65.03 filed January 15, 2019, testimony of
Petitioner, arguments of counsel for Petitioner and ar­
gument of the Respondent and on the record as a
whole, the Court finds as follows:
1. The parties were married on May 28,2013 and
separated on June 18, 2018.

App. 29
2. During the course of the marriage there have
been two other Complaints for Divorce filed which
were both voluntarily dismissed after about seven
months.
3. Subsequent to filing the original Complaint
for Divorce, Wife sought leave and filed an Amended
Complaint for Divorce to add allegations of Interspousal Tort on November 28, 2018.
4. At the time of the filing of the Complaint for
Divorce the Notice to the Parties of Mandatory Injunc­
tions Issued was also filed which provided, in part, as
follows:
(3) Each party is restrained from harassing,
threatening, assaulting or abusing the other and
from making disparaging remarks about the other
in the presence or to either party’s employer.
(6) This injunction shall not preclude either
party from applying to the Court for further tem­
porary orders, and expanded injunction or modifi­
cations or revocation of this temporary injunction.
5. In spite of the injunctions Ms. Stark contacted
Petitioner’s direct supervisor in the Memphis Police
Department and sent correspondence to Mayor Strick­
land, his overall supervisor.
6. In addition Ms. Stark posted a message on Facebook on December 14, 2018 critical of the Memphis
Police Department and referencing an allegation of do­
mestic assault against her Petitioner.

App. 30
7. The allegations of assault have been referred
to a special prosecutor and are being addressed
through the proper channels.
8. Ms. Stark is aware of the potential effect on
the allegations and the public posting of same on his
reputation and his employment.
9. That the sole purpose of making the post and
contacting his employer was to harass the Petitioner
directly in contravention of the mandatory injunc­
tion.
10. Ms. Stark put on no defense proof only argu­
ing that she had a right to post the statements.
IT IS THEREFORE, ORDERED, ADJUDGED
and DECREED that:
1. The Petition for Restraining Order Pursuant
to Tennessee Rules of Civil Procedure Rule 65.03 is
granted.
2. The Respondent, Pamela Stark, shall re­
move the December 14, 2018 Facebook port imme­
diately.
3. The Respondent, Pamela Stark, shall be fur­
ther enjoined from making any other public allegations
against the Petitioner, Joe Stark, on social media (on
any platform) or to his employer which may affect Pe­
titioner’s reputation or employment.

App. 31
4. Petitioner’s prayer for attorney’s fees is re­
served.
/s/ Robert S. Weiss
HONORABLE
ROBERT S. WEISS
Date:

2/13/19

CERTIFICATE OF SERVICE
The undersigned hereby certifies that a copy of the
above order was mailed, postage prepaid, to the parties
of record at the addresses shown in the file, or, if they
were represented, to their attorney of record at his or
her last known address.
/s/A. Wells
COURT CLERK

App. 32
IN THE CIRCUIT COURT OF SHELBY COUNTY,
TENNESSEE FOR THE THIRTIETH
JUDICIAL DISTRICT AT MEMPHIS
PAMELA STARK,
Plaintiff,
Case No. CT-002958-18

vs.
JOSEPH STARK,
Defendant.

BE IT REMEMBERED that the above-captioned
cause came on for hearing, on this, the 7th of February,
2019 before Judge Robert Weiss, when and where the
following proceedings were had, to wit:

[2] APPEARANCES
For the Plaintiff:
MS. PAMELA STARK
Attorney at Law
201 Poplar Avenue
Memphis, TN 38103
(901) 488-5817

App. 33
For the Defendant:
MS. MICHELLE CRAWFORD
MS. REBECCA A. BOBO
Attorneys at Law
Rogers, Berry, Chesney & Cannon, PLLC
5050 Poplar Avenue
Suite 1616
Memphis, TN 38157
(901) 755-5994

[3] INDEX
Page
JOSEPH STARK
Direct Examination
By Ms. Crawford

9

Cross Examination
By Ms. Stark

22

EXHIBITS
Page
Exhibit 1
Facebook post

19

Exhibit 2
E-mail to the mayor from Ms. Stark

20

App. 34

[4] PROCEEDINGS
(WHEREUPON, the above-captioned matter was
heard in open court as follows:)
THE COURT: All right. On the Stark mat­
ter, we are here regarding the petition for a restraining
order that was filed back in January. Are we ready to
go?
MS. STARK: I’m ready, Judge.
MS. CRAWFORD: Your Honor, we have
some housekeeping stuff to take care of ahead of time,
if that’s okay. We’re currently scheduled for trial on
March 7th, but the depositions that Ms. Stark is want­
ing to take have not occurred yet. We’re still trying to
get those scheduled. And so we’ve agreed to continue
the trial that’s set March 7th, but we weren’t ready to
get a date yet until we get discovery further along. So
we just wanted to see if that was permitted by the
Court.
THE COURT: Okay. All right. When are - I
mean, are the depositions scheduled at this point?
MS. CRAWFORD: We’ve exchanged some
dates.
[5] MS. STARK: Judge, I think we’ve agreed
on some dates as far as Mr. Stark’s deposition. How­
ever, the City of Memphis has filed a motion to quash
all the other depositions I have requested taking - no­
tice taking, and there is a motion to compel filed. I’ll

App. 35
need to get with the city attorney’s office to set a hear­
ing date on that, so I can’t set those yet.
THE COURT: Okay. But has the motion to
quash been scheduled yet?
MS. CRAWFORD: I don’t believe the City
has scheduled it to my knowledge.
MS. STARK: Judge, my understanding was
the way the rule is written now that I have to file mo­
tion to compel and then schedule that. The onus comes
to me. I filed that motion, I believe, yesterday, and I will
contact the city attorney’s office about a convenient
date.
THE COURT: Okay.
MS. CRAWFORD: The other matter, Your
Honor, Ms. Berry had a medical procedure last week,
which is why she isn’t here today. She is working from
the office-with just - court appearances are more diffi­
cult. But she asked that I present the Order on the
motion for protective order regarding [6] deposition
witnesses of Sergeant Mote, Anthony Mullins, Daniel
Cordero and James Erwin. Deposition of witness Re­
gina Williamson and deposition of husband, from the
hearing held January 25th. It’s my understanding that
she provided a copy of this Order to Ms. Stark, and Ms.
Stark was not in agreement with its contents, so I
would invite Ms. Stark to prepare her own competing
Order and present those to the Court.
THE COURT:

Okay.

App. 36
MS. STARK: That’s fine, Your Honor. I’ll pre­
pare a competing Order. I do not agree with several of
the things that are listed in that Order.
THE COURT: That’s fine. Give me your pro­
posed Order, Ms. Stark. When are you going to be able
to get your proposed Order to me?
MS. STARK: I’ll certainly have it by Monday
if not by tomorrow, Judge.
THE COURT: That’s fine.
MS. CRAWFORD: Your Honor, I guess the
only issue is whether you want to hear proof on this or
legal arguments or how you want to proceed with the
petition for the restraining order.
THE COURT:

It’s your petition, so . . .

MS. CRAWFORD: Basically, Your Honor, [7]
we’re just asking to extend the existing injunction in
place to include public posts on social media websites.
The existing injunction regarding that is in play here
is each party is restrained from harassing, threaten­
ing, assaulting or abusing the other and for making
disparaging remarks about the other in the presence
or to either party’s employer.
There have been facebook posts. I don’t think that
that’s in dispute that facebook posts were made. A let­
ter was sent to the mayor. I don’t think those are in
dispute.
We’re simply asking that the injunction currently
in place be broadened to also include making posts on

App. 37
social media, in a public forum and sending written
communications to the employer or making state­
ments about our client’s employer that have a detri­
mental effect on his reputation and his job. And I’m
happy to put my client on to testify.
THE COURT: Ms. Stark, I mean . . .
MS. STARK: Your Honor, I don’t see any ba­
sis for extending any Order to say that I cannot make
disparaging remarks about Mr. Stark’s employer. That
is not before this Court. It is clear political commen­
tary.
If you look at TCA Section 36-3-618, the [8] pur­
pose of the domestic victims bill of right specifically
states that the legislature enacted that because law
enforcement has a history of not treating domestic vi­
olence appropriately. Between that and the fact that
the day before I made that comment, which is nothing
more than political commentary, there was yet again
another police shooting, and it was brought back to the
media attention of the propriety of the Memphis Police
Department investigating their own. This is also some­
thing that is currently before the city council as to
whether it’s appropriate for the Memphis Police De­
partment to investigate their own in these types of
situations.
And lastly this Monday, Judge, this very Monday
another police officer was arrested for domestic vio­
lence and the media -

App. 38
THE COURT: Well, but Ms. Stark, explain
to me the benefit that you’re posting this in conjunction
with this divorce.
MS. STARK: Judge, this THE COURT: Again, I mean, I’ll go back and
look at 36-3-618, but the problem is is that you’re both
under a mutual restraining order that is concurrent
with this divorce being filed. That there shall not be
any disparaging remarks about either of [9] you to an­
yone.
MS. STARK: Judge, the disparaging re­
marks were not about Mr. Stark. It was about the
Memphis Police Department and their behavior. To say
that this Court has the right to extend that restraining
order to keep me from making disparaging remarks
about the powers and the actions of our government
far exceeds the jurisdiction of this Court or the action
that’s before this Court. The remark was not against
Mr. Stark.
THE COURT: All right. Have a seat. Put on
your client.
MS. CRAWFORD: Your Honor, I would call
Joseph Stark to the stand.
JOSEPH STARK,
was called as a witness and having first been duly
sworn testified as follows:

App. 39
DIRECT EXAMINATION
QUESTIONS BY MS. CRAWFORD:
Q. Can you state your name for the record,
please?
A. Joe Stark.
[10] Q. And what is your current address?
A. 397 Enquirer Court Number 104 Cordova,
Tennessee 38018.
Q.

How long have you lived at that residence?

A.

Since June.

Q. Of2018?
A. Of 2018. Yes, ma’am.
Q. And what do you do for a living, Mr. Stark?
A. I work for the Memphis Police Department.
Q. How long have you worked for the Memphis
Police Department?
A. 31 years.
Q. What is your job title there?
A.

I’m a sergeant in cold case homicide.

Q.

Can you speak up a little bit?

A.

Okay.

Q. And what is your relationship to Pamela
Stark?

App. 40
A. That’s my wife.
Q. When were you married?
A. In May of 2013.
Q. And you separated this most recent time, you
said, in June of 2018?
A. Yes, ma’am.
Q. Have you separated before?
[11] A. Twice. Yes, ma’am.
Q.

Okay. When were those separations?
MS. STARK:
THE COURT:

Objection to relevancy.
Overruled.

BY MS. CRAWFORD:
Q. When were those separations?
A. I believe it was 2016 and T7,1 believe.
Q. All right. For the separation in 2016, how long
did that last?
A. I think it was 10 or 11 months.
Q. And what about 2017?
A. I think it was nine months.
Q. So you have been separated this most recent
time since June?
A. Yes, ma’am.

App. 41
Q. Do you know when the divorce was filed this
most recent time?
A. That would have been like the 26th of June. I
think it was nine days after I left.
Q.

Okay. Has Ms. Stark filed for divorce before?

A. Twice.
Q. Twice before. Did she amend that divorce
Complaint?
A. I don’t believe so. Not that I [12] Q. The existing divorce Complaint?
A.

On the previous one or this one?

Q. This one?
A. Yes. Yes.
Q. Why did she amend that divorce Complaint?
A. She added torts of I think battery, emotional
abuse and that I promised to pay off her student loans.
Q. Okay. We haven’t represented you the entire
time; is that correct?
A. No, ma’am. You haven’t.
Q. Who represented you before?
A. Tracey Malone.
Q. All right. Why is she not representing you
now?

App. 42
A. I got a call from her that said that she could
not - she did not have the time to deal with my wife
because of the MS. STARK: Objection to hearsay.
THE COURT: What’s the relevance of why
Ms. Malone is not representing her?
MS. CRAWFORD: Your Honor, it goes to
harassment. We’re trying to establish a pattern of Ms.
Stark’s behavior and the harassment and the intimi­
dation of Mr. Stark through this lawsuit, [13] through
the depositions, through the notices, through every­
thing that’s been filed.
MS. STARK: Your Honor, I would say that’s
all outside the purview of this restraining order. The
restraining order is very specific into a facebook post.
None of the other things are before this Court.
THE COURT: Go ahead.
BY MS. CRAWFORD:
Q. Why did Ms. Malone withdraw?
A. She said she didn’t have time to deal with my
wife and that she was sorry, but she can’t handle all
the e-mails because she’s got other clients. She can’t
spend all of her time with Ms. Stark.
Q. And your wife is representing herself in this
matter?
A. Yes.

App. 43
Q. Has your wife done anything to harass you
since the filing of the divorce in this case?
A. Well, other than the filing of the divorces, she
has notified my lieutenant, subpoenaed my lieutenant
to her house to give a deposition and wanting paper­
work on a ongoing investigation. And she was wanting
to take those depositions at her house. She’s got three
other officers that she [14] wanted to depose of at her
house, and she wants me to have a deposition at our
house, which I do not feel comfortable with based on
her allegations that are THE COURT: All right. I’ve already dealt
with that, Mr. Stark, so . . .
THE WITNESS: Okay.
THE COURT: Go ahead.
A. I found where her account was in my cell
phone where she could know where I’m at 24/7.
BY MS. CRAWFORD:
Q. Tell me about that. What did you discover
about your cell phone?
A. Her account was in my cell phone.
Q. Okay. What did that allow her to do?
A. Well, they weren’t sure. If she has passwords
to my e-mail, she can read my e-mail, or she knows
where I’m at 24/7. It’s the GPS.
Q. When did you find out about that?

App. 44
A. It’s been about three months ago, four months
ago.
Q. Have you corrected that since?
A. Yes. I got a message from Ms. Stark right after
it happened that she had tried to take it out, but she
couldn’t get it out because of the security in my phone.
[15] Q. Okay.
A. I had to move into - well, when I moved, I
moved into a gated community so that she would not
have access to my vehicle or me unless I knew she was
coming.
Q. Why did you do that?
A. Well, I’ve had previous experience where I’ve
woken up, come outside and my vehicle’s gone. And I’ve
had her show up at my apartment and asked her to
leave at which time she told me, make me. So in those
experiences, I got in a gated community. That’s where
I moved to. But that’s basically most of it.
Q. And this is a short-term marriage?
A. Yes, five years. And we haven’t even been - we
were together a couple of years before the marriage.
Q. Okay. Do you have any children?
A. I have three of my own, and she has three of
her own.
Q. No minor children together?

App. 45
A. No children together.
Q. Do you have any assets together?
A. We have a house together in Midtown and a
Jeep Cherokee.
[16] Q. That’s it?
A. Yes. I might add that just -1 know there’s an­
other deposition she’s wanting to take of Ms. William­
son in Missouri that could be done over the phone.
THE COURT: Mr. Stark, we’ve already got
that addressed, so . . .
THE WITNESS: All right.
BY MS. CRAWFORD:
Q. When did you discover the facebook post that
is in question here?
A. I don’t know exactly when it was. But I know
that people in the homicide office had it before I did.
Q.

So your coworkers have seen it?

A.

Oh, yes.

Q. Do you and Ms. Stark have mutual friends
and mutual coworkers?
A. Oh, yes.
Q. Via facebook?
A. Yeah. Being that I’m a police officer and she’s
a prosecutor, we have lots of mutual friends.

App. 46
Q. So statements made on her facebook page
could be seen by your employer and your coworkers?
A. One of my coworkers made a like or whatever
[17] on facebook of her post, so I know that homicide
knew about it before I did.
Q. All right. I’m going to pass forward a docu­
ment. Do you recognize that, Mr. Stark?
A. Yes. This is her post.
Q.

Okay. And what’s the date on the post?

A. December 14th, 2018.
Q. At what time?
A.

11:07 p.m.

Q. Okay. Can you read for me that second para­
graph?
A. “Being in charge of the investigation, they de­
cided what, if anything, is done, documented or col­
lected as they investigate one of their own with no one
watching over their shoulder.”
Q. Keep going.
A. “I speak now as a recent victim of domestic vi­
olence all the hands of - at the hands of a Memphis
police officer. I can attest to exactly how wide the thin
blue line can get. Do not get me wrong. I understand it.
Who among us would want to hang one of their own
out to dry. This is even more so for the brotherhood of
blue. However it is even more devastating. Why do you

App. 47
turn - who do you turn to when those whom - I can’t
make that out - want [18] to serve and to protect en­
force the law don’t.”
Q. Okay. Has Ms. Stark been deemed a victim of
domestic violence in any report that you’re aware of?
A. No.
Q. Is there currently an ongoing investigation re­
garding allegations that you have made towards Ms.
Stark and Ms. Stark has made towards you?
A. Yes.
Q. Have those - has there been any resolution to
that ongoing investigation?
A. No.
Q. Was a special prosecutor appointed to investi­
gate that?
A. Yes.
Q.

Okay. So that’s outside -

A.

Shelby County.

Q. - the Memphis Police Department and Shelby
County; is that correct?
A. No. Memphis Police Department is investigat­
ing.

Q. Who is the special prosecutor?
A. Jennifer McEwen.

App. 48
Q.

She’s not out of Shelby County?

A.

She’s in Trenton.

Q. Okay. The language of “victim of domestic
[19] violence at the hands of a Memphis police officer,”
did you take that as a referral to you?
A. She’s only married to one police officer, so
that’s . . .
MS. CRAWFORD: Your Honor, I would like
to mark this as Exhibit 1.
(WHEREUPON, the above-mentioned document
was marked as Exhibit Number 1.)
BY MS. CRAWFORD:
Q. Mr. Stark, I’m handing you another document.
Do you recognize this document?
A. Yes.
Q. What is this?
A. This is a letter to the mayor of Memphis.
Q.

Okay. Who’s it from?

A.

Pamela Stark.

Q. And this was actually filed in this court case,
correct?
A. Yes.
Q.

On January 25th, 2019?

App. 49
A. Yes.
Q. This e-mail is rather lengthy, but are you
named by name in this e-mail to the mayor?
A. Yes, I am.
Q. Are there implications or does Ms. Stark [20]
allege that there is corruption in the Memphis Police
Department in this e-mail?
A. Yes.
Q. Does she reference the incident that is cur­
rently being investigated as the basis for the alleged
corruption?
A. Yes.
Q. And she specifically names you as her hus­
band?
A. Yes.
MS. CRAWFORD: Your Honor, I would like
to mark this as the next exhibit.
(WHEREUPON, the above-mentioned document
was marked as Exhibit Number 2.)
BY MS. CRAWFORD:
Q. Mr. Stark, is the mayor your direct boss?
A. Direct boss?
Q. Or up the chain?
A. He’s the boss of my bosses.

App. 50
Q. So would you consider the mayor to be an em­
ployer?
A. Yes.
Q. The allegations that Ms. Stark has made
against you on facebook and to the mayor, has that af­
fected your reputation with your employer?
[21] A. I think it brings it into question.
Q. Do you have concerns that it could cause any
issues with your continued employment with Memphis
Police Department?
A. Yes.
Q. Do you feel that the actions of Ms. Stark have
been harassing?
A. Yes.
Q. Do you think she’s done it to intimidate you?
A. Yes.
Q. Has this caused you emotional distress and
problems with work?
A. Yes.
Q. Are you asking the Court to issue a restrain­
ing order to prohibit Ms. Stark from making public
statements on public forums via facebook and other
things about you and your employer?
A. Yes.

App. 51
Q. Are you asking the Court to order her to re­
move the existing facebook post?
A. Yes.
MS. CRAWFORD: Your Honor, I have no fur­
ther questions at this time.
THE COURT: Cross.
[22] CROSS EXAMINATION
QUESTIONS BY MS. STARK:
Q. Mr. Stark, what account are you saying that
of your wife’s is in your cell phone? You just testified
that you found out that your wife’s account was in your
cell phone and that it allowed her to track you with
GPS. What account was that?
A. It was a - I’m not sure exactly what account
because it was the Itech people that took it out.
Q. Which Itech people?
A. Dennis and I don’t know the other guy that
comes in.
Q. Are those members of the Memphis Police De­
partment, or is that a private company?
A. No. That’s Memphis Police Department.
They’re on the floor of the homicide. I took it to them
because my phone kept acting weird and heating up.
And they asked me, well, who’s Pam. I said that’s my
wife. Oh, well, her account’s in your phone.

App. 52
Q. And you didn’t ask them what account?
A. No.
Q. And I’m sorry. What was the nature of the did you say e-mail or text message that you received
from your wife about this account?
[23] A. Yeah. You told me that you couldn’t get
the account - you tried to take the account - the next
day after it was taken out, which letting me know that
you were following everything. That you could not get
the account out. You tried to. You could not get the ac­
count out because it’s secured on my phone.
Q. What account did I say I couldn’t get out be­
cause of security?
A. I’m not sure what account it was.
Q. Do you remember the exact text message or
the day?
A. No. But I could find it, I think.
Q.

Is it a text message or an e-mail?

A. I’m not sure.
Q. And you’re not sure what day?
A. No.
Q. And you’re saying that Mrs. Stark did not say
what account she was talking about?

App. 53
A. I knew what account she was talking about
because you just - you sent it to me the day after the
account was taken out.
Q. I’m asking you if in the communication from
your wife, did she say what account she was talking
about?
[24] A. I don’t remember the exact wording.
Q. You didn’t look at that in preparation for this
hearing?
A. No.
Q. Did you turn that over to your attorney in
preparation for this hearing?
MS. CRAWFORD: Objection. That calls for
attorney/client privilege.
THE COURT:

Sustained.

MS. STARK: Nothing further, Judge.
THE COURT: Anything further?
MS. CRAWFORD: Nothing further, Your
Honor.
THE COURT: All right. Mr. Stark, you may
step down. Any further proof?
MS. CRAWFORD: No, Your Honor. We rest.
THE COURT: Ms. Stark?

App. 54
MS. STARK: No, Your Honor. Just argu­
ment.
THE COURT: All right.
MS. CRAWFORD: Your Honor, there’s a cur­
rent injunction in place. That injunction states that it’s
restraining both parties from harassing, threatening,
assaulting or abusing the other and from making dis­
paraging remarks about the other to or in [25] the
presence of any children of the parties or to the - either
party’s employer.
Ms. Stark, I believe, in her opening statement said
that she had the right for political speech about the
Memphis Police Department. However, every state­
ment that she has made with facebook, with her e-mail
to the mayor, they’ve not only been about the Memphis
Police Department, but it’s also been in conjunction
with her husband, her husband’s name or at least
enough words to reference her husband have been as­
sociated with both of those.
She is alleging corruption based on something
that is currently under investigation. And this has an
effect on my client. It affects his reputation in his posi­
tion as a Memphis police officer. And it affects the em­
ployer’s - it affects the employer.
Ms. Stark is making allegations that because of
this divorce and because of Mr. Stark’s position that
the Memphis Police Department is doing something
corrupt. That most certainly would cause injury to my

App. 55
client, and if he were to be fired in an effort to avoid
any sort of scandal that Ms. Stark is alleging.
Especially with the fact that there is an open in­
vestigation, a special prosecutor has been appointed,
we are asking the Court to order Ms. Stark [26] to re­
move the existing facebook post and to prohibit her
from making any disparaging remarks about Mr. Stark
or the Memphis Police Department’s alleged corrup­
tion on any public forum, any social media or to anyone
as the injunction requires.
MS. STARK: Judge, I have an absolute right
under the Constitution and every law in this state to
make allegations about mistreatment by the Police
Department and their investigation. I have an abso­
lute right to make allegations that I have been a victim
of corruption from the Police Department. And for you
to rule otherwise is far outside this divorce proceeding.
Everything that has been brought before this
Court including the letter to the mayor is my attempt
to get somebody to look at what the Memphis Police
Department has done. And I have an absolute right to
do that, Judge. An absolute right.
THE COURT: Counsel, here’s the problem.
You’re under a mutual restraining order. You are. Not­
withstanding that any other - when you filed your
Complaint, the restraining order was put into place.
And that included not to make any disparaging com­
ments to an employer. The mayor is his employer. Bot­
tom line.

App. 56
[27] You can sit there and argue that you have a
freedom of speech, and - but the moment you sat there
and said in this letter referencing your husband, that
changed it. That was about him. It wasn’t about a gen­
eral concern about police corruption.
The fact that, you know, another police officer was
arrested yesterday or last week or last month, if you
want to sit there and rant about that, have at it. But if
you’re going to make references to your husband, about
your husband, about your situation, then that is off
limits. Bottom line.
That post shall be removed today, and a manda­
tory injunction will go into effect that there will be no
communication with employers. There is a special
prosecutor involved in this case. That special prosecu­
tor will deal with this Court. Whatever allegations
have been made, we’ll deal with that in due course. But
at this point involving making any further allegations
in social media is completely inappropriate and is be­
ing enjoined.
MS. STARK: Well, Your Honor, I will just
with all candor to the Court say you might as well take
me into custody right now. I have contacted the FBI as
well as having contacted the mayor of Memphis [28] to
try and get this addressed. I am saying that I am a vic­
tim of corruption from the Memphis Police Depart­
ment, and I am going to pursue every course of action
I have and THE COURT: Ms. Stark, are you going to re­
move that post, yes or no?

App. 57
MS. STARK: I am not.
THE COURT: Officer Houston, take her into
custody.
We’ll stand in recess.
(Short break.)
THE COURT: Ms. Stark, please stand. Are
you going to comply with this Court’s orders?
MS. STARK: No, I’m not.
THE COURT: All right. I’m making a find­
ing that you are in direct contempt of court by willfully
refusing to comply with this Court’s orders. You will be
held in the - you will be held in custody until such time
that you decide that you want to change your position
and you apologize to this Court. We’ll stand in recess
until that time.
MS. CRAWFORD: Your Honor, I did have an
affidavit of attorney’s fees regarding this hearing that
I would like THE COURT: I’ll reserve that at this [29]
time.
MS. CRAWFORD: Thank you, Your Honor.
MS. STARK: Judge, I won’t have that Order
probably by Monday.
THE COURT: That’s fine.

App. 58
(WHEREUPON, the foregoing proceedings were
concluded at 11:42 a.m.)
[Reporter’s Certificate Omitted]

App. 59
IN THE CIRCUIT/CHANCERY
COURT OF TENNESSEE
FOR THE THIRTIETH JUDICIAL DISTRICT
AT MEMPHIS, SHELBY COUNTY
PAMELA DIANE STARK, }
PlaintiffTWife,
v.
JOE EDWARD STARK,
Defendant/Husband

}

}
}
}
}
}

Docket No.
CT-002958-18
Div VIII

NOTICE TO THE PARTIES OF
MANDATORY INJUNCTIONS ISSUED
(Filed Jun. 29, 2018)
Pursuant to T.C.A Section 36-4-106, the following
injunctions are issued against each party effective at
the filing of this Complaint for Divorce:
(1) Each party is restrained and enjoined from
transferring, assigning, borrowing against, concealing
or in any way dissipating or disposing of any marital
property without the consent of the other party or an
order of this Court. Expenditures from current income
to maintain the marital standard of living and the
usual and ordinary costs of operating a business are
not restricted by this injunction. Each party shall

App. 60
maintain records of all expenditures, copies of which
shall be available to the other party upon request.
(2) Each party is restrained and enjoined from
voluntarily canceling, modifying, terminating, assign­
ing, or not allowing to lapse for nonpayment of premi­
ums, any insurance policy, including but not limited to
life, health, disability, homeowners, renters and auto­
mobile, without the consent of the other party or an
order of the court. “Modifying” includes any change in
beneficiary status.
(3) Each party is restrained from harassing,
threatening, assaulting or abusing the other and from
making disparaging remarks about the other in the
presence or to either party’s employer.
(4) Each party is restrained and enjoined from
hiding, destroying or spoiling, in whole or in party, any
evidence electronically stored or on computer hard
drives or other memory storage devices.
(5) The provisions of Section 36-6-101(a)(3) shall
be applicable upon fulfillment of the requirements of
subsection (d) of this act.
(6) This injunction shall not preclude either
party from applying to the Court for further temporary
orders, and expanded injunction or modifications or
revocation of this temporary injunction.
(7) This temporary injunction remains in effect
against both parties until the Final Decree of Divorce
or Order of Legal Separation is entered, the petition is

App. 61
dismissed, the parties reach agreement or until the
Court modifies of dissolves the injunction.
Jimmy Moore, Circuit Court Clerk
Donna L. Russell, Chancery Court
Clerk & Master
D.C.
By: /s/ Donna Russell
Date: June 29, 2018

App. 62
IN THE SUPREME COURT OF TENNESSEE
AT JACKSON
PAMELA D. STARK v. JOE EDWARD STARK
Circuit Court for Shelby County
No. CT-002958-18
No. W2019-00650-SC-R11-CV
ORDER
(Filed Aug. 10, 2020)
Upon consideration of the application for permis­
sion to appeal of Pamela Diane Stark and the record
before us, the application is denied. In addition, the
Motion Electronic Frontier Foundation for leave to file
brief as amicus curiae is granted.
PER CURIAM

App. 63
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TENNESSEE
WESTERN DIVISION
PAMELA D. STARK,

)
)

Plaintiff,

)

v.
ROBERT WEISS,
Tennessee Circuit
Court Judge,
Defendants.

) Case No.
) 2:19-c v-02406-JTF-tmp
)
)
)

ORDER ADOPTING MAGISTRATE JUDGE’S
REPORT AND RECOMMENDATION TO GRANT
DEFENDANT’S MOTION TO DISMISS AND
DENYING PLAINTIFF’S OBJECTION TO
THE REPORT AND RECOMMENDATION
(Filed Nov. 27, 2019)
Before the Court is Defendant, Tennessee Circuit
Court Judge, Robert Weiss’ Motion to Dismiss, which
was filed on July 12, 2019. (ECF No. 9.) Pursuant to
Administrative Order 2013-05, this case, including De­
fendant’s Motion, was referred to the Magistrate Judge
for management of all pretrial matters. Plaintiff Pam­
ela Stark filed a pro se Response to Defendant’s Motion
on July 22,2019. (ECF No. 10.) Defendant filed his Re­
ply on August 1, 2019. (ECF No. 12.) That same day,
the Magistrate Judge entered a Report and Recom­
mendation, suggesting that this Court grant Defend­
ant’s Motion to Dismiss. (ECF No. 11.) Plaintiff filed

App. 64
an Objection to the Report and Recommendation on
August 12, 2019 (ECF No. 13), to which Defendant re­
sponded on August 26, 2019 (ECF No. 14).
For the following reasons, the Court finds that
the Magistrate Judge’s Report and Recommendation
should be ADOPTED and Defendant’s Motion to Dis­
miss GRANTED.
LEGAL STANDARD
Congress passed 28 U.S.C. § 636(b) “to relieve
some of the burden on the federal courts by permitting
the assignment of certain district court duties to mag­
istrates.” United States v. Curtis, 237 F.3d 598,602 (6th
Cir. 2001). Pursuant to the provision, magistrate
judges may hear and determine any pretrial matter
pending before the Court, except various dispositive
motions. 28 U.S.C. § 636(b)(1)(A). Regarding those ex­
cepted dispositive motions, magistrate judges may still
hear and submit to the district court proposed findings
of fact and recommendations for disposition. 28 U.S.C.
§ 636(b)(1)(B). Upon hearing a pending matter, “the
magistrate judge must enter a recommended disposi­
tion, including, if appropriate, proposed findings of
fact.” Fed. R. Civ. P. 72(b)(1); see also Baker v. Peterson,
67 F. App’x 308,310 (6th Cir. 2003). Any party who dis­
agrees with a magistrate’s proposed findings and rec­
ommendation may file written objections to the report
and recommendation. Fed. R. Civ. P. 72(b)(2).
The standard of review that is applied by the dis­
trict court depends on the nature of the matter consid­
ered by the magistrate judge. See Baker, 67 F. App’x at

App. 65
310 (citations omitted) (“A district court normally ap­
plies a ‘clearly erroneous or contrary to law’ standard
of review for nondispositive preliminary measures. A
district court must review dispositive motions under
the de novo standard.”). Upon review of the evidence,
the district court may accept, reject, or modify the pro­
posed findings or recommendations of the magistrate
judge. Brown v. Bd. of Educ., 47 F. Supp. 3d 665, 674
(W.D. Tenn. 2014); 28 U.S.C. § 636(b)(1). The court “may
also receive further evidence or recommit the matter
to the [m] agistrate [j]udge with instructions.” Moses v.
Gardner, No. 2:14-cv-2706-SHL-dkv, 2015 U.S. Dist.
LEXIS 29701, at *3 (W.D. Tenn. Mar. 11, 2015). A dis­
trict judge should adopt the findings and rulings of the
magistrate judge to which no specific objection is filed.
Brown, 47 F. Supp. 3d at 674.
FINDINGS OF FACT
Plaintiff advanced no specific factual objections.
Therefore, the Court adopts and incorporates the pro­
posed findings of fact in this case as provided by the
Magistrate Judge in his Report and Recommendation.
(ECF No. 11,1-4.)
ANALYSIS
Plaintiff alleges that Defendant Judge Weiss’ find­
ings and ruling set forth in his Order on Petition
for Restraining Order (the “Ruling”), which he en­
tered during Plaintiff’s divorce proceeding in state
court, violated 42 U.S.C. § 1983 and Plaintiff’s federal

App. 66
constitutional rights under the First and Fourteenth
Amendments. (ECF No. 1.) Specifically, Plaintiff con­
tends it was an “unlawful exercise ofjudicial power” for
Defendant to require the removal of Plaintiff’s Facebook post and to enjoin her from “making any other
public allegations against the Petitioner, Joe Stark, on
social media (on any platform) or to his employer
which may affect Petitioner’s reputation or employ­
ment.” (Id.) (quoting ECF No. 1-10, 3.) Plaintiff claims
that these enjoinments amounted to “prior restraint,”
which violate her constitutional rights, and she seeks
relief from this Court declaring the same. (Id. at 12.)
Defendant argues that Plaintiff’s claim should be dis­
missed under Fed. R. Civ. P. 12(b)(1) for lack of subject
matter jurisdiction because the Rooker-Feldman doc­
trine bars the Court’s review. (ECF No. 9.)
The Rooker-Feldman doctrine prevents an unfa­
vorable state-court decision from being appealed to a
lower federal court. Lance v. Dennis, 546 U.S. 459, 466,
126 S. Ct. 1198, 1202, 163 L. Ed. 2d 1059 (2006). The
United States Supreme Court is the only federal court
that has jurisdiction to correct or modify state-court
judgements. Gottfried v. Med. Planning Servs., Inc., 142
F.3d 326, 330 (6th Cir. 1998) (citing Rooker v. Fid. Tr.
Co., 263 U.S. 413, 416, 44 S. Ct. 149,150, 68 L. Ed. 362
(1923); D.C. Court ofAppeals v. Feldman, 460 U.S. 462,
474, 103 S. Ct. 1303,1310, 75 L. Ed. 2d 206 (1983); 28
U.S.C. § 1257). Even if a state-court decision was
wrong, the Supreme Court has explained, “that did not
make the judgment void, but merely left it open to re­
versal or modification in an appropriate and timely

App. 67
appellate proceeding.” Exxon Mobil Corp. v. Saudi
Basic Indus. Corp., 544 U.S. 280, 284, 125 S. Ct. 1517,
1522, 161 L. Ed. 2d 454 (2005) (quoting Rooker, 263
U.S. at 416). To determine whether the Rooker-Feldman doctrine is applicable, the district court must ask
“whether the ‘source of injury’ upon which plaintiff
bases his federal claim is the state court judgment.”
Lawrence v. Welch, 531 F.3d 364, 368 (6th Cir. 2008)
(quoting McCormick v. Braverman, 451 F.3d 382, 393
(6th Cir. 2006)). If the state-court decision is identified
as the source of injury, then a federal district court
cannot assert jurisdiction—i.e., the claim is barred by
the Rooker-Feldman doctrine. Id. at 368-69 (plaintiff’s
claim that the state of Michigan violated his First and
Fourteenth Amendment rights by denying his applica­
tion to practice law in the state was a “direct attack”
on a state-court decision and was thus, barred by
Rooker-Feldman). The proper application of this doc­
trine requires the court to pay careful attention to the
relief sought by the federal-court plaintiff. Hood v. Kel­
ler, 341 F.3d 593, 597 (6th Cir. 2003).
In her Response to Defendant’s Motion to Dismiss,
Plaintiff argues she “is not seeking a review of Defend­
ant’s Ruling,” but rather, seeking declaratory relief
against the “future application” of those rulings as it
pertains to her constitutional rights and ability to seek
redress if they are violated. (ECF 10,3.) (citing Hood v.
Keller, 341 F.3d 593, 598 (6th Cir. 2003) (“Where the
litigant is challenging the constitutionality of a rule
that was applied to him but is not asking to correct or
revise the determination that he violated the rule,

App. 68
Rooker-Feldman is no obstacle to the maintenance of
[the] suit.”). Plaintiff reiterates that her action seeks
to address “only future application” of Defendant’s Rul­
ing, which, she argues, does not require this Court to
“overturn, undo, or revise” the Ruling in any way. (Id.)
Plaintiff makes the same argument in her Objection to
the Magistrate Judge’s recommendation. Plaintiff ar­
gues that her claim, like the claim in Hood, seeks “pro­
spective relief” against “future application” of a statecourt decision, which is “suis generis” or independent
from the divorce action pending in state court. (ECF
No. 13.) The Court disagrees.
As the Magistrate Judge explained at length in his
Report, Plaintiff’s reliance on Hood and similar cases
is misguided. (ECF No. 11, 7-10.) In Hood, the Sixth
Circuit held that the Rooker-Feldman doctrine did not
apply where a plaintiff challenged the constitutional­
ity of a state rule but did not seek to set aside his state
conviction under the rule. Hood, 341 F.3d at 599. The
federal relief Hood sought was “independent” from the
state-court judgment, which gave the district court ju­
risdiction over the claim. Id. See also Brent v. Wayne
Cty. Dep’t of Human Servs., 901 F.3d 656, 674 (6th Cir.
2018), cert, denied, 139 S. Ct. 1551, 203 L. Ed. 2d 714
(2019) (internal quotations and citations omitted)
(“[W]hile the Rooker-Feldman doctrine does not bar a
plaintiff from attempting to clear away an allegedly
unconstitutional state-law policy going forward, it does
prevent a plaintiff from seeking relief against the dis­
cipline imposed upon him by application of an alleg­
edly unlawful policy in the past.”).

App. 69
Plaintiff’s Complaint requests:
[T]his honorable Court grant her declaratory
relief by finding that Judge Weiss’ findings
and Order on Petition for Restraining Order
entered on February 13,2019 violates the con­
stitutional rights of Plaintiff as guaranteed
under the First and Fourteenth Amendments
of the United States Constitution.
(ECF No. 1,12.) Based on the plain language of Plain­
tiff’s request for relief, the Magistrate Judge concluded
that Plaintiff, “is not seeking prospective relief from
the application of an unconstitutional statute or rule;
instead, she asks the court to find that the February 13
Order is unconstitutional.” (ECF No. 11,10.) The Court
agrees with the Magistrate Judge’s assessment that
Plaintiff’s “source of injury” is Judge Weiss’ unfavora­
ble ruling. (Id.); Lawrence, 531 F.3d 364,368. It is clear,
from the language of her Complaint, that Plaintiff is
asking this Court to provide relief against discipline
imposed upon her by the state-court’s decision and is
not, contrary to her arguments, seeking to prevent the
future application of an unconstitutional state rule. Id.
Any review of Plaintiff’s constitutional claims would
therefore, require review of the state-court decision.
Patmon v. Michigan Supreme Court, 224 F.3d 504, 510
(6th Cir. 2000). To grant Plaintiff’s request would ef­
fectively overturn Judge Weiss’ ruling. Thus, Plaintiff’s
Action For Declaratory Relief, as presented in this
case, is precisely what the Rooker-Feldman doctrine
prohibits. (ECF No. 11, 10.) Plaintiff claim for relief
may be brought before Tennessee’s appellate courts or

App. 70
the United States Supreme Court, but it cannot be
brought here.
CONCLUSION
After de novo review, the Court hereby ADOPTS
the Magistrate Judge’s Report and Recommendation,
GRANTS Defendant’s Motion to Dismiss for lack ofju­
risdiction, and DENIES Plaintiff’s Objections thereto.
IT IS SO ORDERED on this 27th day of Novem­
ber 2019.
s/ John T. Fowlkes, Jr.
JOHN T. FOWLKES, JR.
United States District Court

App. 71
IN THE CIRCUIT COURT OF
SHELBY COUNTY, TENNESSEE
FOR THE THIRTIETH JUDICIAL DISTRICT
AT MEMPHIS
PAMELA DIANE STARK,
Plaintiff/
Counter-Defendant,
v.
JOE EDWARD STARK,

Docket No.
CT-002958-18
Division VIII

Defendant/
Counter-Plaintiff.
PETITION FOR RETRAINING ORDER
PURSUANT TO TENNESSEE RULES
OF CIVIL PROCEDURAL RULE 65.03
(Filed Jan. 25, 2019)
COMES NOW, the Defendant/Counter-Plaintiff,
Joe Edward Stark, hereinafter “Husband,” and pursu­
ant to Tennessee Rules of Civil Procedure 65.03 files
this his Petition for Restraining Order. In support of
said Motion, Husband would show unto the Court the
following:
1. Plaintiff/Counter-Defendant, Pamela Diane
Stark, hereinafter “Wife,” filed her Complaint for Di­
vorce on June 29, 2018. Wife filed her Complaint for
Divorce and has proceeded throughout the pendency
of this divorce pro se. Wife is an Assistant District

App. 72
Attorney General with the Shelby County District At­
torney General’s Office.
2. On August 2, 2018, Husband filed his Answer
to Complaint for Absolute Divorce.
3. On August 13, 2018, Husband filed his
Amended Answer and Counter Complaint for Divorce.
4. On November 28, 2018, Wife filed her
Amended Complaint for Divorce and Interspousal Tort
Action after receiving leave of this Court allowing her
to amend her Complaint.
5. ' Husband is currently a homicide detective em­
ployed by the Memphis Police Department.
6. On or about June 17, 2018, an incident oc­
curred at the parties’ marital residence and Wife has
alleged that during said incident Husband committed
domestic violence against her.
7. On or about January 4,2019, Husband became
aware that on December 14,2018, Wife publicly posted
her allegation regarding Husband on Facebook and
disparaged the Memphis Police Department’s internal
handling and investigation of said case. See Exhibit A
attached hereto.
8. Husband would submit that Wife’s allegation
and her dissemination of her allegations, specifically
on such a public forum, will cause immediate and ir­
reparable injury, loss, and/or damage to Husband, in­
cluding, but not limited to, resulting in Husband losing

App. 73
his job, being demoted, and/or Husband’s reputation
being tarnished with the Memphis Police Department.
9. Therefore, Husband would request that this
Court enter an immediate temporary Restraining
Order ordering Wife or any agent on her behalf or
at her direction to immediately remove the said post
attached as Exhibit A from all social media sites and
refrain from, cease and desist making any future writ­
ten comments or posts on social media, including, but
not limited to, Facebook, or oral comments which may
jeopardize Husband’s employment and/or which may
impugn Husband’s reputation with the Memphis Po­
lice Department. Husband would further request that
upon hearing on this Petition that the Court extend
the Restraining Order indefinitely.
10. Husband would state that he has incurred
attorney fees in bringing this Petition and would re­
quest the Court award him his reasonable and neces­
sary expenses and fees incurred in bringing this
Petition.
WHEREFORE, PREMISES CONSIDERED,
Husband prays the following:
1. That this Court issue an immediate tempo­
rary Restraining Order ordering Wife or any agent on
her behalf or at her direction to immediately remove
the said post attached as Exhibit A from all social me­
dia sites and refrain from, cease and desist making any
future written comments or posts on social media, in­
cluding, but not limited to, Facebook, or oral comments
which may jeopardize Husband’s employment and/or

App. 74
which may impugn Husband’s reputation with the
Memphis Police Department.
2. That this Court set this Petition for a hearing;
3. That upon hearing in this matter that this
Court extend the temporary Restraining Order indefi­
nitely.
4. That the Court order Wife to pay Husband’s
attorney fees involved in having to file and present this
said Petition to the Court.
5. For such other relief, both general and specific,
which in the premises appears and is proper.
Respectfully submitted,

ROGERS BERRY CHESNEY
& CANNON, PLLC
/s/ Melissa C. Berry
Melissa C. Berry (BPR #19967)
Rebecca A. Bobo (BPR #31996)
Attorney for Plaintiff/Wife
5050 Poplar Avenue, Suite 1616
Memphis, Tennessee 38157
901-755-5994
901-755-8714 (fax)

[Oath Omitted]

App. 75
FIAT
IVThe Clerk of the Court:
Immediately issue a Restraining Ord^ordering
Wife or any agent on her behalf or aUher direction to
immediately remoVythe said pos^aftached as Exhibit
A from all social medih^ite^hnd refrain from, cease
e written comments or
and desist making any
posts on social mejlitC includin^vhut not limited to,
comments whicn^niay jeopardize
Facebook, or
impugn
Husbandk^mployment and/or which
Husbahd’s reputation with the Memphis Police De­
partment.
Set a hearing on the restraining order on Thurs­
day. the 7th day of February. 2019, at 10:00 a.m./p.m.
IT IS SO ORDERED.
/s/ Robert S. Weiss
JUDGE
DATE:

1/15/10

TIME:

10:30 am

[Exhibits Omitted]

App. 76
IN THE CIRCUIT COURT OF
SHELBY COUNTY, TENNESSEE
FOR THE THIRTIETH JUDICIAL
DISTRICT AT MEMPHIS
PAMELA DIANE STARK,
Plaintiff/
Counter-Defendant,
vs.
JOE EDWARD STARK,

Docket No.
CT-002958-18
Division VIII

Defendant/
Counter-plaintiff.
HUSBAND’S PETITION FOR CIVIL AND
CRIMINAL CONTEMPT AND FOR DETERMI­
NATION OF RESERVED ATTORNEY FEES
(Filed Jul. 17, 2019)
COMES NOW the Defendant/Counter-Plaintiff,
JOE EDWARD STARK, hereinafter referred to as
“Husband” and files this his Petition for Civil and
Criminal Contempt and for Determination of Reserved
Attorney Fees, and in support thereof respectfully rep­
resents to the Court the following, to wit:
1.

Plaintiff/Counter-Defendant, Pamela Diane
Stark, hereinafter “Wife,” filed her Complaint
for Divorce on June 29, 2018. Wife has pro­
ceeded throughout the pendency of this

App. 77
divorce pro se. Wife is a licensed attorney in
the State of Tennessee, and, until approxi­
mately mid-February 2019, was an Assistant
District Attorney General with the Shelby
County District Attorney General’s Office.
Husband is currently a homicide detective
employed by the Memphis Police Department.
2.

Pursuant to Tennessee Code Annotated §364-106, simultaneously with the filing of the
Complaint, the mandatory and temporary
mutual injunctions were issued to both par­
ties, which provide in pertinent part:
Plaintiff and Defendant are commanded to be
restrained and enjoined from the following
acts effective upon the filing of the Complaint
for Divorce . . . Harassing, threatening, as­
saulting or abusing the other and from mak­
ing disparaging remarks about the other to or
in the presence of any children of the parties
or to either party’s employer.

3.

On January 15,2019, Husband through coun­
sel filed his Petition for Restraining Order
Pursuant to Tennessee Rules of Civil Proce­
dure Rule 65.03 and supporting Affidavit.

4.

On February 7,2019, the Court held a hearing
on said Petition for Restraining Order.

5.

On February 13, 2019, the Court issued the
Order on Petition for Restraining Order Pur­
suant to Tennessee Rules of Civil Procedure
Rule 65.03, which provides in pertinent part
as follows:

App. 78
The Respondent, Pamela Stark, shall remove
the December 14, 2018 Facebook post imme­
diately; and
The Respondent, Pamela Stark shall be fur­
ther enjoined from making any other public
allegations against the Petitioner, Joe Stark,
on social media (on any platform) or to his em­
ployer which may affect Petitioner’s reputa­
tion or employment; and
Petitioner’s prayer for attorney’s fees is re­
served.
6.

On March 29, 2019, this Court entered its Or­
der on Direct Civil Contempt.

7.

Shortly after Wife removed the Facebook post
as ordered by the Court on February 7, 2019,
Wife replaced the post originally with a GIF
post in its place depicting a woman shushing
in the finger to lips motion, and later with a
photo of a woman with her mouth sown shut.
See Exhibit 1 attached hereto.

8.

Husband would show that since the hearing
on February 7,2019, and since the Court’s or­
ders of February 13, 2019, and March 29,
2019, Wife has engaged in a knowing and will­
ful course of conduct to violate said orders and
continues to reference her domestic violence
allegations against Husband in the context of
his employment by the Memphis Police De­
partment and her allegations about the cor­
ruption in the Memphis Police Department.

App. 79
CRIMINAL CONTEMPT.
9.

On June 27,2019, an article authored by Phil­
lip Jackson, entitled “Former prosecutor: Mem­
phis police ‘destroyed my career’ after domestic
assault involving officer” was published in the
Commercial Appeal, which features photo­
graphs and statements obtained through in­
terviews with Wife, attached hereto as Exhibit
2.

10. Husband would show that The Commercial
Appeal Article constitutes willful, knowing,
criminal contempt of this Court’s orders.
CIVIL CONTEMPT
11. Husband would also show that Wife has also
continued to post on social media in violation
of this Court’s orders, that each such act con­
stitutes willful, knowing civil contempt of this
Court’s orders, and that Wife should be fined
and/or incarcerated until she purges her con­
tempt by removing all such posts from social
media.
12. Husband would show that at all times Wife
has been physically and mentally capable of
complying with the orders of this Court and
that she has shown reckless regard for the or­
ders of this Court.
13. Husband would show that he has incurred at­
torney fees and suit expenses in bringing this
Petition and would request that Wife be or­
dered to pay said fees and expenses and that
a judgment in an amount certain be entered

App. 80
against her for same. Husband would also ask
the Court to assess attorney fees and suit ex­
penses that have been reserved by prior or­
ders of this Court as it pertains to the hearing
from February 7, 2019, and the Husband’s
seeking and enforcement of the Petition for
Restraining Order.
WHEREFORE, PREMISES CONSIDERED, Hus­
band prays:
1. That this Petition be filed in this matter and
that the Court issue a Scire Facias on the charges of
contempt.
2. That this Petition be properly served upon
Wife requiring her to plead or otherwise answer this
Petition.
3. That this Court set this Petition for an eviden­
tiary hearing.
4. That this Court find Wife guilty of each proven
count of willful civil contempt of the Court’s orders and
require Wife to be incarcerated pending her purging
her contempt through removal of all social media posts
in violation of this Court’s orders.
5. That this Court find Wife guilty of each proven
count of willful criminal contempt of this Court’s or­
ders, and fine and/or incarcerate her to the fullest ex­
tent of the law.
6. That the Court award Husband his suit ex­
penses and attorney fees incurred in this matter, and
order Wife to pay same as and for a judgment against

App. 81
her in an amount certain. That the Court also assess
attorney fees and suit expenses that have been re­
served by prior orders of this Court as it pertains to the
hearing from February 7, 2019, and the Husband’s
seeking and enforcement of the Petition for Restrain­
ing Order.
7. For any other relief, both specific and general,
which in the premises appears and is proper.
Respectfully submitted,

ROGERS BERRY CHESNEY
& CANNON, PLLC
/s/ Melissa C. Berry
Melissa C. Berry (BPR #19967)
Michelle S. Crawford (BPR #26619)
Attorney for Plaintiff/Wife
5050 Poplar Avenue, Suite 1616
Memphis, Tennessee 38157
901-755-5994
901-755-8714 (fax)

[Certificate Of Service Omitted]
[Oath Omitted]

App. 82
FIAT AND NOTICE OF HEARING
TO THE CLERK OF THE CIRCUIT COURT OF
SHELBY COUNTY, TENNESSEE:
Issue the Scire Facias on Charges of Con­
tempt prayed for above.
Set the foregoing for a hearing on Friday, the 16
day of August. 2019, at 10 o’clock A. M., in the Circuit
Court of Shelby County, Tennessee for the Plaintiff/
Wife, PAMELA DIANE STARK, to appear and defend
this matter.
/s/ Robert S. Weiss__________
JUDGE ROBERT S. WEISS
DATE:

7/17/19

WARNING
This petition places you in jeopardy of being
found in Criminal contempt of this court’s or­
der (s). Each incident of contempt can result in
your incarceration in jail for contempt.
As to Criminal contempt, pursuant to Tenn.
Code Ann. 29-9-101, et. seq., you have certain con­
stitutional rights of a criminally accused person
including but not limited to, the right not to tes­
tify against yourself, the right to counsel, and
the presumption of innocence.
[Exhibits Omitted]

